OIG Investigative Reports,  Settlement reached to resolve alleged violations of the False Claims Act regarding federal student loans
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
United States Attorney
Eastern District of Pennsylvania
615 Chesnut Street
Suite 1250
Phiadelphia, Pennsylvania 19106-4476
(215) 861-8200
October 3, 2008
NEWS RELEASE
Acting United States Attorney Laurie Magid today announced the government has reached a settlement with Steven Davis, of Philadelphia, and Fuschia Davis, of Salt Lake City, Utah, to resolve alleged violations of the False Claims Act regarding federal student loans. Fuschia Davis and her father Steven will pay the United States $54,000 to resolve allegations that Fuschia Davis falsified federal student financial aid applications in order to obtain college financial aid from the Department of Education (“DOE” ) for her own benefit, and that Steven Davis, aware of his daughter’s actions, encouraged her.
The Higher Education Act authorizes the United Sates to offer student financial assistance, including Pell Grants and subsidized or federally insured student loans. These programs are administered by DOE and provide federal monies to eligible post-secondary students in financial need. Eligibility is based on an evaluation of income and assets of the student’s family. If a student has been supported by his or her parents in the previous year, then the student is considered a dependent student and both parents’ income for the previous year is used to determine financial need.According to the allegations laid out in the complaint, Fuschia Davis created a false identity and submitted a false application minimizing her family income available for college, thus qualifying Fuschia Davis for federal student financial aid to which she was not entitled. Steven Davis was aware and encouraged the plan.
The case was investigated by Agent Kristy Smith of the DOE’s Office of Inspector General and was handled by Assistant United States Attorney Virginia R. Powel.United States Attorney’s Office
Contact: Patty Hartman
Eastern District, Pennsylvania
Media Contact
Suite 1250, 615 Chestnut Street
215-861-8525
Philadelphia, PA 19106
Copies of News Memos and Related Documents can Also be Found at
http://www.usdoj.gov/usao/pae
Top
Printable view
Share this page
Last Modified: 10/10/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov